1301 Pennsylvania Avenue NW
Washington, D.C. 20004
United States

Paul D. Clement, P.C.
To Call Writer Directly:
+1 202 389 5000
paul.clement@kirkland.com

Facsimile:
+1 202 389 5200

+1 202 389 5000
www.kirkland.com

May 7, 2021
By Electronic Filing
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543-0001
Re: New York State Rifle & Pistol Ass’n v. Corlett, No. 20-843
Dear Mr. Harris:
I represent petitioners in the above-captioned matter. On behalf of both parties, I am
writing to request an extension of time for the merits briefs and joint appendix in this case, as
follows:
Petitioners brief (and joint appendix):

July 2, 2021

Respondents brief:

August 23, 2021

Both parties have agreed to this proposed schedule, which would allow the Court to hold oral
argument during the October 2021 sitting. The standard seven-day deadline for an amicus curiae
brief under Supreme Court Rule 37.3(a) will apply. Please let me know if you need any
additional information.
Sincerely,

Paul D. Clement
Counsel for Petitioners
cc:

Beijing

Boston

All counsel of record

Chicago

Dallas

Hong Kong

Houston

London

Los Angeles

Munich

New York

Palo Alto

Paris

San Francisco

Shanghai

